OIG Investigative Reports, Newark NJ., March 29, 2011 - Newark, N.J., March 29, 2011 -  Jersey City Man Pleads Guilty to Scheme to Steal Money from Ney Jersey City University
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF NEW JERSEY
FOR IMMEDIATE RELEASE
March 29, 2011
www.justice.gov/usao/nj
CONTACT: Rebekah Carmichael
Office of Public Affairs
(973) 645-2888
JERSEY CITY MAN PLEADS GUILTY TO SCHEME TO STEAL MONEY FROM NEW JERSEY CITY UNIVERSITY
NEWARK, N.J. – A Jersey City, N.J., man admitted today to participating in a scheme to steal federally-subsidized funds from The New Jersey City University (NJCU), U.S. Attorney Paul J. Fishman announced.
Curtis Shearer, 23, pleaded guilty to an Information charging him with conspiracy to steal from an organization receiving federal benefits. The defendant entered his guilty plea before U.S. District Judge William J. Martini in Newark federal court.
According to documents filed in the case and statements made in court:
Shearer admitted that he conspired with Shaunette Moody, the office manager for the NJCU Student Government Organization (SGO), and the office manager’s husband, Alexander Moody. Shearer agreed to steal funds from NJCU by endorsing unauthorized checks provided to him by the Moodys and drawn on the SGO bank account. In total, from September 30, 2009 through February 1, 2010, Shearer personally endorsed and negotiated 26 unauthorized SGO checks for approximately $59,276. Shearer acknowledged that he provided these funds to Alexander Moody, who compensated him in cash and with gambling trips.
The defendant was originally charged by criminal complaint on September 7, 2010. Shaunette and Alexander Moody each pleaded guilty to money laundering and theft charges in December 2010, admitting they stole over $500,000. Another co-defendant, Kimberly Jackson, pleaded guilty in February 2011 to cashing 18 fraudulent checks with a total value of $36,201. Charges against a final co-defendant, Arsenio Willey, remain pending.
The conspiracy charge to which Shearer pleaded guilty carries a maximum potential penalty of five years in prison and a fine of $250,000 or twice the amount of gain or loss resulting from the offense (whichever is greater). In addition, he agreed to pay restitution to NJCU. Shearer is scheduled to be sentenced on July 12, 2011.
U.S. Attorney Fishman credited special agents of IRS – Criminal Investigation, under the direction of Special Agent in Charge Victor W. Lessoff; and special agents of U.S. Department of Education, Office of the Inspector General, under the direction of Special Agent in Charge Brian Hickey for the Northeast Region, for the investigation leading to today’s guilty plea.
The government is represented by Assistant U.S. Attorney Randall H. Cook of the United States Attorney’s Office Criminal Division in Newark.
The charges and allegations made in the Complaint against Willey are merely accusations, and the defendant is considered innocent unless and until proven guilty.
11-126
###
Defense counsel:
Defense counsel: Maria Noto, Matawan, N.J.
Shearer, Curtis Information.pdf
Top
Printable view
Last Modified: 06/03/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov